Office of the Inspector General
Skip to content
Social Security Online
Office of the Inspector General
www.socialsecurity.gov
Home  |  Questions?  |  Contact
Us
Search
About
Hotline
Offices
Resources
Español
OIG
Home
Audit
Report - A-13-97-21008
Office of
Audit
Disability Applicants Responses
to Vocational Rehabilitation Issues: A Mail Survey - A-13-97-21008
- 9/24/97
TABLE OF CONTENTS
INTRODUCTION
FINDINGS
Respondents
Were Uninformed about Vocational Rehabilitation
Health
Care Initiatives Were Rated as Important by Most Respondents
Most
Respondents Were Uninformed about Work Incentives
Most
Respondents Were Not Motivated by Others to Participate in Vocational
Rehabilitation
Health
Factors Limited Participation in Vocational Rehabilitation
CONCLUSION
AND RECOMMENDATIONS
APPENDICES
Appendix A - Survey
Response Data
Appendix B - Sample
Selection and Nonrespondent Analysis
Appendix D - SSA
Activities to Disseminate Information Concerning Vocational Rehabilitation
Services
Appendix F - List
of Contributors
Back to top
INTRODUCTION
OBJECTIVE
Our objective was to survey applicants for Social Security and Supplemental
Security Income (SSI) disability benefits to determine their knowledge
of and participation in the Department of Education's Vocational
Rehabilitation program. We also asked about the importance of work
incentives as a motivator for the applicants' return to work.
BACKGROUND
The Social Security Administration (SSA) administers two disability
programs, Social Security Disability Insurance and SSI, which pay
benefits to qualified disabled individuals. To help those with the
most severe physical and mental disabilities return to the work force,
the Department of Education's Vocational Rehabilitation program provides
comprehensive vocational rehabilitation services.
The Social Security Act (Act) permits payment of SSA funds for vocational
rehabilitation services to make services more readily available to
Social Security beneficiaries and to achieve savings for the SSA
trust funds. Also, the Act authorizes the Commissioner of Social
Security to enter into agreements or contracts with alternative service
providers in cases where a State agency declines to participate in
providing vocational rehabilitation services.
On May 13, 1994, the Joint Vocational Rehabilitation Referral Task
Force issued its final report which identified obstacles to achieving
greater numbers of referral acceptances by the Vocational Rehabilitation
Agencies under the existing process. The report found that, "...there
is a need for improving the information available to the public to
assist them in better understanding and using the rehabilitation
and employment features in the disability program." The task
force further stated that, "Existing SSA public information
does not clearly link work incentives and other disability benefit
protections to their potential use for participating in available
rehabilitation programs and the attainment of substantial gainful
work."
SSA, as part of its disability process reengineering program, is
undertaking several initiatives to strengthen the entire disability
determination process. To assist in this effort, SSA requested that
the Office of the Inspector General conduct this survey to obtain
applicants' opinions about the vocational rehabilitation referral
process.
SCOPE AND METHODOLOGY
We selected the population for this study from the Disability Determination
File (SSA-831), including all adult, nonblind disability and SSI
applicants whose initial claims were adjudicated in 1992. From a
universe consisting of those individuals identified as potential
candidates for vocational rehabilitation services, we selected a
random sample of 600 applicants. We excluded 25 applicants from this
sample due to death, imprisonment, disabled children incorrectly
identified as adults, and incorrect Social Security numbers.
We conducted a mail survey in which we released 575
initial questionnaires, with second and third mailings to nonrespondents.
We received 327 usable questionnaires for an overall response rate
of 56.9 percent. We surveyed applicants concerning a number of vocational
rehabilitation issues. For complete response data, see Appendix A.
Percentages listed in the report are based on the number of respondents
answering each question. Appendix B contains the confidence interval
ranges to be used for each question cited in this report.
We conducted this inspection in accordance with the Quality
Standards for Inspections issued by the President's Council
on Integrity and Efficiency.
Back to top
FINDINGS
Respondents
Were Uninformed about Vocational Rehabilitation
SSA informs applicants about vocational rehabilitation through interviews,
letters, and brochures. Regardless of the methods used, we found
that:
Seventy percent stated they were either not told or do
not recall being told they might be contacted about vocational
rehabilitation services.
Seventy-six percent of those whose claims were approved
said they were not told or do not recall being told that their
payments might stop if they refused to participate in a vocational
rehabilitation program.
Seventy-five percent did not receive or do not recall receiving
the leaflet "Working While Disabled--How Social Security Can
Help?"
Seventy-four percent indicated that the information they
received was either not helpful in understanding vocational rehabilitation
or they did not recall receiving the information.
Health
Care Initiatives Were Rated as Important
Seventy-five percent rated continued Medicare coverage
as very important to encouraging work.
Seventy-nine percent rated extended Medicaid eligibility
as very important to encouraging work.
Most
Respondents Were Uninformed about Work Incentives
Fifty-six percent alleged that no one told them about work
incentives.
Only 32 percent stated they were told about work incentives
by a SSA employee.
Most
Respondents Were Not Motivated by Others to Participate
Only 44 percent of respondents reported someone encouraging
them to participate in vocational rehabilitation services.
Health Factors
Limited Participation
Over two-thirds of respondents listed health problems as
the primary reason for not participating in vocational rehabilitation.
Seventy percent stated they were either not
told or do not recall being told they might be contacted about
vocational rehabilitation services.
Seventy-six percent of those whose claims
were approved said they were not told or do not recall being told
that their payments might stop if they refused to participate in
a vocational rehabilitation program.
Seventy-five percent did not receive or do
not recall receiving the leaflet "Working While Disabled--How
Social Security Can Help?"
Seventy-four percent indicated that the information
they received was either not helpful in understanding vocational
rehabilitation or they did not recall receiving the information.
Health
Care Initiatives Were Rated as Important
Seventy-five percent rated continued Medicare
coverage as very important to encouraging work.
Seventy-nine percent rated extended Medicaid
eligibility as very important to encouraging work.
Most
Respondents Were Uninformed about Work Incentives
Fifty-six percent alleged that no one told
them about work incentives.
Only 32 percent stated they were told about
work incentives by a SSA employee.
Most
Respondents Were Not Motivated by Others to Participate
Only 44 percent of respondents reported someone
encouraging them to participate in vocational rehabilitation services.
Health
Factors Limited Participation
Over two-thirds of respondents listed health
problems as the primary reason for not participating in vocational
rehabilitation.
Back to top
CONCLUSION
AND RECOMMENDATIONS
The survey showed that, despite SSA's efforts, applicants remain
uninformed about vocational rehabilitation services and work incentives.
The applicants' medical conditions often limited their participation
in the program. In addition, applicants' uncertainties concerning
loss of medical coverage was frequently mentioned as an important
factor in their reluctance to seek these services.
The low percentage of participation in vocational rehabilitation
services, as well as applicants' lack of awareness of these services,
reemphasizes the need for SSA to take steps to strengthen the dissemination
of information regarding the availability of vocational rehabilitation
services and to promote recipients' rehabilitation. In support of
the May 13, 1994 Joint Vocational Rehabilitation Referral Task Force
report, we recommend expanding public access to information, focusing
on the positive aspects of rehabilitation, employment, and work incentives.
We recommend that SSA consider the following options:
pilot test revisions to public information
materials through focus group meetings;
include periodic "stuffers" or "reminder
notices" in mailings such as annual cost-of-living notices,
annual earnings notices, continuing disability review notices,
etc., emphasizing the availability of vocational rehabilitation
services, participation in those services, and work reporting requirements;
develop and administer exit surveys of individuals
completing applications to ensure that explanations of vocational
rehabilitation and work incentives are understandable; and
seek front-line employee insights and recommendations
concerning vocational rehabilitation referrals.
SSA COMMENTS
SSA agreed with the recommendation and indicated that
some of the options had merit. The Agency has already taken action
in some of the areas. The full text of SSA comments, except for technical
comments, is in Appendix C of this report. SSA also identified a
number of activities undertaken since the issuance of our draft report
to strengthen the dissemination of information regarding the availability
of vocational rehabilitation services to promote recipients' rehabilitation.
Those activities are identified in Appendix D of this report.
Back to top
APPENDIX
A
SURVEY TABLES
Sex (327 responses)
Responses
OASDI
SSI
In Pay
Total
% of Respondents
Female
59
87
102
146
44.65
Male
82
99
143
181
55.35
TOTAL
141
186
245
327
100.00
% of Respondents
43.12
56.88
74.92
Age (at established onset date) when disabled (281
responses)
Responses
F
M
OASDI
SSI
In Pay
Total
% of Respondents
1-10
11
10
10
11
16
21
7.47
11-20
12
8
4
16
14
20
7.12
21-30
22
23
20
25
37
45
16.01
31-40
18
48
26
40
49
66
23.49
41-50
37
40
36
41
56
77
27.40
51-60
22
25
35
12
39
47
16.73
61-64
3
2
2
3
5
5
1.78
TOTAL
125
156
133
148
216
281
100.00
% of Respondents
44.48
55.52
47.33
52.67
76.87
No Response
21
25
8
38
29
46
N/A
Number of years of education prior to any education
acquired as part of a rehabilitation program: (320 responses)
Responses
F
M
OASDI
SSI
In Pay
Total
% of Respondents
1-6
8
17
9
16
20
25
7.81
7-9
29
52
34
47
60
81
25.31
10-12
36
37
25
48
54
73
22.81
High School Graduate
45
45
43
47
71
90
28.13
Some College
20
20
22
18
27
40
12.50
College Graduate
5
4
5
4
6
9
2.81
Post Graduate College Study
1
1
1
1
2
2
.63
TOTAL
144
176
139
181
240
320
100.00
% of Respondents
45.00
55.00
43.44
56.56
74.38
No Response
2
5
2
5
5
7
N/A
Back to top
At the present
time, how many others do you financially help to support in the
household? (322 responses)
Responses
F
M
OASDI
SSI
In Pay
Total
% of Respondents
0
79
76
57
98
123
155
48.14
1
31
43
39
35
57
74
22.98
2
15
19
18
16
21
34
10.56
3
8
21
14
15
23
29
9.01
4
10
11
8
13
11
21
6.52
5
2
2
1
3
3
4
1.24
6
0
3
0
3
2
3
.93
7
0
1
0
1
1
1
.31
8
0
1
1
0
1
1
.31
TOTAL
145
177
138
184
242
322
100.00
% of Respondents
45.03
54.97
42.86
57.14
70.81
No Response
1
4
3
2
3
5
N/A
At the present time, how many of those you help
to support in the household are children under age 18? (310 responses)
Responses
F
M
OASDI
SSI
In Pay
Total
% of Respondents
0
97
111
88
120
161
208
67.10
1
24
20
18
26
31
44
14.19
2
10
23
19
14
21
33
10.64
3
8
9
3
14
11
17
5.48
4
2
1
1
2
3
3
.97
5
0
2
0
2
2
2
.65
6
0
2
0
2
1
2
.65
7
0
1
1
0
1
1
.32
TOTAL
141
169
130
180
231
310
100.00
% of Respondents
45.48
54.52
41.94
58.06
74.52
No Response
5
12
11
6
14
17
N/A
Back to top
Were you working
at the time you became disabled? (319 responses)
Responses
F
M
OASDI
SSI
In Pay
Total
% of Respondents
Yes
82
115
110
87
147
197
61.76
No
62
60
29
93
93
122
38.24
TOTAL
144
175
139
180
240
319
100.00
% of Respondents
45.14
54.86
43.57
56.43
75.24
No Response
2
6
2
6
5
8
N/A
About how many people worked where you last worked?
(Check Ö only one box.) (279 responses)
Responses
F
M
OASDI
SSI
In Pay
Total
% of Respondents
10 or less
36
70
42
64
84
106
37.99
11-24
9
19
12
16
24
28
10.04
25-49
15
21
18
18
30
36
12.90
50-74
5
7
6
6
8
12
4.30
75-99
4
6
5
5
9
10
3.59
100 or more
25
24
32
17
39
49
17.56
I don't know
24
14
15
23
27
38
13.62
TOTAL
118
161
130
149
211
279
100.00
% of Respondents
42.29
57.71
46.59
53.41
75.63
No Response
28
20
11
37
34
48
N/A
Was your disability caused by the work you were
doing? (307 responses)
Responses
F
M
OASDI
SSI
In Pay
Total
% of Respondents
Yes
17
44
30
31
46
61
19.87
No
90
84
76
98
127
174
56.68
Don't Know
31
41
29
43
58
72
23.45
TOTAL
138
169
135
172
231
307
100.00
% of Respondents
44.95
55.05
43.97
56.03
75.24
No Response
8
12
6
14
14
20
N/A
Back to top
Did your employer
try to make changes on the job to make it easier for you to work
in spite of your disability? (275 responses)
Responses
F
M
OASDI
SSI
In Pay
Total
% of Respondents
Yes
21
15
24
12
29
36
13.09
No
81
115
88
108
142
196
71.27
Don't Remember
17
26
15
28
31
43
15.64
TOTAL
119
156
127
148
202
275
100.00
% of Respondents
43.27
56.73
46.18
53.82
73.45
No Response
27
25
14
38
43
52
N/A
When you filed an application with Social Security
for disability benefits, were you informed that you might be contacted
about vocational rehabilitation services and how these services
might help you go to work? (322 responses)
Responses
F
M
OASDI
SSI
In Pay
Total
% of Respondents
Yes
41
57
51
47
80
98
30.43
No
59
61
54
66
76
120
37.27
Don't Remember
44
60
36
68
87
104
32.30
TOTAL
144
178
141
181
243
322
100.00
% of Respondents
44.72
55.28
43.79
56.21
73.29
No Response
2
3
0
5
2
5
N/A
If your disability claim was approved by Social
Security, were you informed that your disability payments may be
stopped if you refused to participate in a vocational rehabilitation
program and you did not have a good cause for refusing? (307 responses)
Response
F
M
OASDI
SSI
In Pay
Total
% of Respondents
Yes
28
46
38
36
64
74
24.10
No
67
70
58
79
96
137
44.63
Don't Remember
41
55
37
59
81
96
31.27
TOTAL
136
171
133
174
241
307
100.00
% of Respondents
44.30
55.70
43.32
56.68
78.50
No Response
10
10
8
12
4
20
N/A
Did any of the following people encourage you to
take part in vocational rehabilitation services? (Check Ö all boxes
that apply.) (143 responses)
Responses1
F
M
OASDI
SSI
In Pay
Total
Family
29
38
30
37
54
67
Doctor(s)
15
27
25
17
32
42
Friends
18
18
15
21
30
36
Social Security Employee
15
19
16
18
23
34
Someone Else
17
17
17
17
23
34
Employer
4
5
8
1
9
9
Church Members
6
2
1
7
7
8
Back to top
If you have
not tried participating in a program of vocational rehabilitation
services, please check the following possible concern(s) you
have about going to work. (Check all boxes that apply.)
I have not participated because: (220 responses)
Responses1
F
M
OASDI
SSI
In Pay
Total
My health problem severely limits what I
think I can do at work.
61
90
74
77
124
151
I have not been contacted about applying
for services.
46
63
41
68
82
109
Employers don't think that I am capable of
doing a full-time job due to my health problem.
34
44
38
40
63
78
I don't have the skills, education or training
needed to get a full-time job.
23
32
16
39
43
55
Other reasons.
29
23
19
33
35
52
I do not want to risk losing my Medicare
or Medicaid coverage.
23
20
18
25
41
43
I can't earn enough to replace my disability
payment(s).
17
19
16
20
31
36
I can't get affordable or convenient transportation
to and from work, or can't find housing near work.
18
16
8
26
26
34
No full-time work is available in my line
of work or I can't find work.
13
14
11
16
17
27
I need special equipment or devices to work,
to speak with or hear others at work, or to get around
at work.
4
6
5
5
9
10
I can't arrange childcare or have other family
responsibilities.
7
3
4
6
7
10
I have other income or financial support
available.
5
3
4
4
3
8
I have previously dealt with a State vocational
rehabilitation agency and I was not pleased with the service(s)
I received.
4
2
3
3
6
6
I have previously dealt with a State vocational
rehabilitation agency and I was not able to obtain a job
after receiving services.
2
2
1
3
1
4
I have previously dealt with a private vocational
rehabilitation organization and I was not able to obtain
a job after receiving services.
0
2
1
1
1
2
I have previously dealt with a private vocational
rehabilitation organization and I was not pleased with
the service(s) I received.
0
0
0
0
0
0
If you did participate in a program of vocational
rehabilitation services, but did not finish, please check
the possible concern(s) you had that caused you not to complete
the program. (Check Ö all boxes that apply.) I did not complete
vocational rehabilitation services because: (31 responses)
Responses1
F
M
OASDI
SSI
In Pay
Total
My disability got worse.
6
8
6
8
12
14
My health problem severely limited what I
thought I could do at work.
5
7
7
5
11
12
I was physically or mentally unable to participate
in the services the Vocation Rehabilitation counselor offered
to me.
9
3
4
8
10
12
I felt I did not need to work because I have
other income or financial support available to me that
covers my living expenses.
7
4
4
7
6
11
I needed medical treatment or therapy for
my health problem which conflicted with obtaining vocational
rehabilitation services.
4
6
4
6
8
10
I did not think the services the Vocational
Rehabilitation counselor was providing would get me a job
I would like.
4
1
0
5
2
5
The Vocational Rehabilitation counselor was
not helpful in the initial interview.
2
2
1
3
3
4
I could not earn enough to replace my disability
payment(s).
1
1
1
1
2
2
I did not want to risk losing my Medicare
or Medicaid coverage.
1
1
1
1
2
2
I could not arrange childcare or have other
family responsibilities.
1
1
1
1
2
2
I could not get affordable, convenient or
accessible transportation to and from work or housing near
work.
0
1
1
0
1
1
I did not think the services the Vocational
Rehabilitation counselor was providing would get me a job
I would like.
0
0
0
0
0
0
If you participated in and completed a program
of vocational rehabilitation services, please check the possible
reason(s) you had for participating. (Check all boxes
that apply.) I participated in vocational rehabilitation services
because: (19 responses)
Responses1
F
M
OASDI
SSI
In Pay
Total
Working is an important part of my lifestyle.
7
8
8
7
12
15
I was determined to overcome my disability.
8
7
7
8
12
15
I was interested in improving my education
or training.
7
6
7
6
9
13
I am young and feel I have some future in
the workforce.
5
8
8
5
9
13
I believed that vocational rehabilitation
could help me to learn new skills and find employment.
6
6
6
6
10
12
The Vocational Rehabilitation counselor was
so helpful.
7
4
6
5
10
11
I believed I could earn more money by working
than by receiving disability payments from Social Security.
6
4
5
5
9
10
My family encouraged me to work.
3
5
4
4
6
8
I felt that others expected me to work.
3
4
5
2
7
7
My disability improved.
2
2
2
2
3
4
I was afraid I would lose my disability payments
if I did not participate.
2
2
3
1
4
4
Other reasons you participated.
2
1
3
0
2
3
Back to top
In your opinion,
how important are each of the following in encouraging you to work?
(Check Ö one box in each row.)
(203 responses)
Continued Medicare coverage
Responses1
F
M
OASDI
SSI
In Pay
Total
Very Important
66
87
69
84
128
153
Somewhat Important
5
10
6
9
13
15
Not Important
9
7
11
5
14
16
Continuation of payments for those in an approved
vocational rehabilitation program
Responses1
F
M
OASDI
SSI
In Pay
Total
Very Important
56
77
61
72
109
133
Somewhat Important
10
16
14
12
24
26
Not Important
8
8
9
7
15
16
Trial work period
Responses1
F
M
OASDI
SSI
In Pay
Total
Very Important
55
70
60
65
101
125
Somewhat Important
13
12
9
16
22
25
Not Important
9
14
12
11
20
23
Reentitlement to cash payments and Medicare (new
period of entitlement)
Responses1
F
M
OASDI
SSI
In Pay
Total
Very Important
52
70
58
64
102
122
Somewhat Important
15
17
12
20
26
32
Not Important
5
9
9
5
13
14
Reinstatement during an extended period of eligibility (continuation
of entitlement).
Responses1
F
M
OASDI
SSI
In Pay
Total
Very Important
47
69
58
58
95
116
Somewhat Important
14
15
11
18
26
29
Not Important
6
10
8
8
15
16
Back to top
Deduction for impairment related items
Responses1
F
M
OASDI
SSI
In Pay
Total
Very Important
32
46
40
38
63
78
Somewhat Important
21
26
18
29
42
47
Not Important
15
18
17
16
30
33
If you receive SUPPLEMENTAL SECURITY INCOME DISABILITY
PAYMENTS, complete this section.
Check any of the following incentives you
were told about. (Check all boxes that apply.)
Responses1
F
M
OASDI
SSI
In Pay
Total
None of the incentives.
51
49
39
61
83
100
Partial reduction in Supplemental Security
Income disability payments to recipients when earnings
go above the monthly allowable limit.
23
29
17
35
48
52
Extended Medicaid eligibility.
11
17
11
17
26
28
Plan for achieving self-support (PASS).
9
13
9
13
19
22
Continuation of payments for those who medically
recover while they are participating in an approved vocational
rehabilitation program.
10
12
8
14
19
22
A deduction for costs of certain impairment-related
items and services.
9
9
9
9
17
18
In your opinion, how important are each of the following
in encouraging you to work? (Check one box in each row.)
(127 responses)
Extended Medicaid eligibility
Responses1
F
M
OASDI
SSI
In Pay
Total
Very Important
52
48
32
68
81
100
Somewhat Important
4
4
1
7
6
8
Not Important
3
3
4
2
5
6
Plan for achieving self-support
Responses1
F
M
OASDI
SSI
In Pay
Total
Very Important
45
40
29
56
65
85
Somewhat Important
7
12
6
13
15
19
Not Important
3
3
4
2
6
6
Continuation of payments for those in an approved
vocational rehabilitation program
Responses1
F
M
OASDI
SSI
In Pay
Total
Very Important
43
42
28
57
67
85
Somewhat Important
6
11
7
10
10
17
Not Important
6
4
4
6
10
10
Partial reduction in Supplemental Security Income
payments
Responses1
F
M
OASDI
SSI
In Pay
Total
Very Important
40
37
22
55
63
77
Somewhat Important
9
10
7
12
14
19
Not Important
8
7
6
9
14
15
Back to top
Deduction for impairment related items
Responses1
F
M
OASDI
SSI
In Pay
Total
Very Important
26
26
20
32
39
52
Somewhat Important
17
16
8
25
26
33
Not Important
8
11
8
11
18
19
Who told you about these incentives? (Check all boxes
that apply.) (189 responses)
Responses1
F
M
OASDI
SSI
In Pay
Total
No one
53
52
40
65
80
105
The Social Security office
26
35
22
39
51
61
Someone else
13
4
8
9
13
17
A doctor
6
9
5
10
12
15
A lawyer
5
7
5
7
8
12
A Vocational Rehabilitation counselor
4
8
6
6
9
12
An employer
2
3
2
3
4
5
An insurance company
3
2
2
3
3
5
Did Social Security give you a leaflet called "Working
While Disabled--How Social Security Can Help?" (This leaflet
explains the rules by which you can work while you get disability
payments.) (259 responses)
Responses
F
M
OASDI
SSI
In Pay
Total
% of Respondents
Yes
28
38
35
31
57
66
25.48
No
45
49
35
59
60
94
36.29
Don't Remember
43
56
36
63
85
99
38.23
TOTAL
116
143
106
153
202
259
100.00
% of Respondents
44.79
55.21
40.93
59.07
77.99
No Response
30
38
35
33
43
68
N/A
Back to top
Was the notice
and any attached information that you received from Social Security
helpful to you in understanding what vocational rehabilitation
is? (262 responses)
Responses
F
M
OASDI
SSI
In Pay
Total
% of Respondents
Yes
29
38
32
35
55
67
25.57
No
42
46
37
51
57
88
33.59
Don't Remember
51
56
43
64
92
107
40.84
TOTAL
122
140
112
150
204
262
100.00
% of Respondents
46.56
53.44
42.75
57.25
77.86
No Response
24
41
29
36
41
65
N/A
Was the notice and any attached information material
that you received from Social Security helpful to you in understanding
how you could go about obtaining vocational rehabilitation? (259
responses)
Responses
F
M
OASDI
SSI
In Pay
Total
% of Respondents
Yes
29
33
29
33
52
62
23.94
No
42
51
39
54
68
93
35.91
Don't Remember
49
55
41
63
91
104
40.15
TOTAL
120
139
109
150
211
259
100.00
% of Respondents
46.33
53.67
42.08
57.92
81.47
No Response
26
42
32
34
41
68
N/A
ENDNOTES
1 Respondents were asked to check all responses
that applied. Totals will, therefore, not equal the number of respondents
to the question.
Back to top
APPENDIX
B
Sample Selection and Nonrespondent Analysis
Design Specifications and Sample Selection
The sample size for this inspection was 600 candidates
identified for potential referral for vocational rehabilitation services.
This sample size assumed a 66 percent response rate and a 95
percent confidence interval that would be within 5 percent of the
applicants who were informed that they might be contacted about vocational
rehabilitation services with a rate of informed applicants of 50
percent. The actual response rate was 56.9 percent with a rate of
informed applicants of 30 percent. The precision of our results are
very close to the parameters of the design (5.2 percent as opposed
to 5 percent) for questions where at least 300 people responded.
However, the response rates for the questions in this questionnaire
varied. Therefore, the table below shows a conservative estimate
of precision for varying number of respondents. It is assumed that
the percent responding break 50:50. If a response breaks other than
50:50 (25:75 or 10:90 for example) the precision of the estimate
will be slightly better.
Amount of Precision for Varying Response Rates to
Questions
Number of responses to question
Amount of Precision
50-99
19.6%
100-199
13.9%
200-299
6.9%
300 and up
5.7%
Analysis of Respondents vs Nonrespondents
As of the date of this report, 327 questionnaires had
been returned to our office. This represents a response rate of 56.9
percent.
An important consideration in surveys of this type
is the bias that may be introduced into the results if the nonrespondents
are different than those responding to the survey instrument. To
test for the presence of any bias, we obtained information from the
Social Security Administration files on all of the individuals to
whom questionnaires were sent. The variables we analyzed were selected
because they might determine whether an individual would respond
to the survey, as well as affect the individuals' actual response.
For the 600 individuals, we determined their current pay status (allowed
vs. denied), race, sex, and age. Pay status, race, and sex were categorical
variables which were tested using a Chi-square with appropriate degrees
of freedom. Age is a continuous variable which was tested using the
t-statistic for a difference between means.
The results are presented in the following tables.
The Chi-square values given in the tables provide a test of the difference
in the distribution of the respondents versus the nonrespondents
for the variable of interest. Also provided in the tables are the
response rates by the different values of the variables.
SEX
Sex
Responders
Nonresponders
Total
% Respond
Male
181
55%
170
62%
351
58%
Female
146
45%
103
38%
249
42%
Overall
327
100%
273
100%
600
55%
CHI-SQ=2.81
DF=1
RACE
Race
Responders
Nonresponders
Total
% Respond
White
230
70%
176
64%
406
68%
Non-White
97
30%
97
36%
194
32%
Overall
327
100%
273
100%
600
55%
CHI-SQ=2.34
DF=1
The table for payment status (allowed vs. denied) shows
a statistically significant difference between respondents and nonrespondents
and the t-test performed on the age variable also showed a statistically
significant difference between respondents and nonrespondents.
Back to top
PAYMENT STATUS
Decision
Responders
Nonresponders
Total
% Respond
Allowed
153
47%
94
34%
247
41%
Denied
174
53%
179
66%
353
59%
Overall
327
100%
273
100%
600
55%
CHI-SQ=9.1666*
DF=1
For allowed vs. denied, survey results showed that
approximately 33 percent of those applicants who were allowed benefits
were informed of vocational rehabilitation compared to 28 percent
of the denied applicants. To determine the effect of these differences,
both in response rates and informed rates, we undertook an analysis
of the nonresponders. Assuming that the nonresponders would have
responded the same as the responders in the same pay-status category,
we calculated a hypothetical global response to the question of being
informed of vocational rehabilitation. This calculation gave an estimate
of those who were informed of 32.5 percent, which differs by less
than one percentage point from the 32.7 percent overall rate found
among those responding to the survey.
Age was converted to a categorical variable using the
median as the dividing point between the two groups. When a similar
calculation was performed for the question of being informed of vocational
rehabilitation, the percentages changed very slightly from 27.1 percent
for those responding to 27 percent for the entire sample in the age
group less than 39 years old. Similarly for those 39 years old and
over, the percent changed from 32.97 percent to 33.0 percent.
T-TEST FOR AGE
Applicants
Sample Number
Mean
Respondents
327
39.87
Nonrespondents
273
36.90
t=3.04*
DF=598
Since these differences are very slight, and are well
within the bounds of our confidence interval, plus or minus 5.2 percent,
we can state that nonresponders are not significantly different than
responders with respect to being informed of vocational rehabilitation
services.
*Statistically significant at the 95% confidence level
Back to top
APPENDIX
D
SSA ACTIVITIES TO DISSEMINATE INFORMATION CONCERNING
VOCATIONAL REHABILITATION SERVICES
SSA indicated that it has undertaken the following
activities to disseminate vocational rehabilitation (VR) information
since our draft report was issued in May 1995.
Wrote and published a new public information pamphlet
entitled "How Social Security Can Help With Vocational Rehabilitation." This
pamphlet is also available on the Internet.
Announced a request for proposals (RFP) to attract
public and private practitioners of VR services. These alternate
participants are receiving Social Security Administration (SSA)
referrals of our beneficiaries whom the State VR agencies do not
serve. Over 500 proposals were received in response to the RFP.
SSA is presently awarding contracts to an ever-increasing number
of those who responded.
Announced a RFP to solicit proposals for a management
contractor to assist SSA with the administration of the functions
associated with using alternate participant VR service providers.
Among other duties, the selected contractor will operate a toll-free
number to distribute information about available VR service provider
sources and about work incentives.
Contributed to developing a legislative proposal
whose central theme is to offer beneficiaries a consumer choice
in selecting their VR service provider. Input was sought from various
sources such as advocacy groups, parents, employers, etc., and
was considered in developing the proposal.
Through an Inter-Agency Agreement with the Rehabilitation
Services Administration (RSA), a grant was awarded to Cornell University
to conduct a training project on the Social Security disability
and work incentive programs. Training was offered in multiple sites
nationwide. Audiences included State VR agency counselors and private
sector VR organization members.
Agreed to a workplan with RSA and the council of
State Administrators of Vocational Rehabilitation to undertake
joint actions intended to improve employment opportunities for
our beneficiaries with disabilities.
Added a question to its Disability Report form
to encourage discussion about interest in VR services at the time
of the disability interview.
Developed a handbook for use by both State VR agency
staff and alternate participants. The handbook consolidates information
about the SSA VR payments program, including policy guidance and
operational instructions.
Established an Internet home page to inform the
public about the performance of the SSA VR payments program, VR
service provider sources, and new initiatives in this program.
Back to top
APPENDIX
F
This report was prepared by the Office of Audit under
the direction of Scott Patterson, Director, Evaluations and
Technical Services. Project staff included Alan Stubbs, Senior Evaluator.
The following individuals from the Department of Health and Human
Services/Office of Inspector General were responsible for production
of the draft report of this project.
Kansas City Region Headquarters
James H. Wolf, Regional Inspector General Linda Moscoe
Linda Paddock, Project Leader
Tim Dold
Perry Seaton
Dennis Tharp
Privacy Policy | Website
Policies & Other Important Information | Site
Map
Need Larger Text?
Last reviewed or modified